U.S. Department of the Interior
Office of Inspector General




          AUDIT REPORT

       SAFETY OF DAMS PROGRAM,
       BUREAU OF INDIAN AFFAIRS

            REPORT NO. 95-I-422
              FEBRUARY 1995
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




MEMORANDUM

TO:                          The Secretary

FROM:                        Acting Inspector General

SUBJECT’ SUMMARY: Final Audit Report for Your Information - “Safety of
                  Dams Program, Bureau of Indian Affairs” (No. 95-I-422)

 DISCUSSION: We concluded that the Bureau of Indian Affairs had significantly
improved the management of its dam safety program since our September 1989
audit report was issued and was implementing the recommendations contained in
the report. However, we reported that further program efficiencies could be
achieved if the Bureau streamlined its corrective action process and improved its
ability to respond to emergency conditions. Specifically, the Bureau’s process of
identifying and correcting dam safety deficiencies was time consuming and did not
allow managers the flexibility to deviate from the process and to recommend less
costly or nonstructural alternatives to mediate identified deficiencies, particularly at
many smaller Bureau dams. Also, the Bureau needed to install early warning
systems, which would be an inexpensive alternative to more costly rehabilitation
work at or near those dams identified as posing a high or significant hazard to
public safety. This would enable the Bureau to more effectively monitor the
conditions affecting a dam and warn or evacuate people at risk of impending dam
failures. The Bureau also has not prepared emergency action plans for over half of
its high or significant hazard dams and has not tested or updated the plans it has
completed. Such plans, which detail the procedures to be followed during
emergencies, are essential to the Bureau’s effectiveness in protecting lives and
property.




Attachment

Prepared by: Marvin Pierce
Extension: 208-4252
                                                                                              W-IN-BIA-001-94


               United States Department of the Interior



                                         Arlington, VA 22209




                      MEMORANDUM AUDIT REPORT

    To:         Assistant Secretary for Indian Affairs

    From:      Acting Assistant Inspector General for Audits

    Subject:   Final Audit Report on the Safety of Dams Program, Bureau of Indian
               Affairs (No. 95-I-422)

                                     INTRODUCTION
    This report presents the results of our audit of the Bureau of Indian Affairs safety
    of dams program. Our objective was to determine whether the Bureau had taken
    sufficient actions to address the recommendations made in our September 5, 1989,
    audit report entitled “Dam Safety Program, Bureau of Indian Affairs” (No. 89-108).
    We also evaluated the Bureau’s safety of dams program from an economy and
    efficiency perspective. Overall, we found that the Bureau had taken corrective
    actions to address the recommendations presented in our prior audit report.
    Although the Bureau has improved its overall management of the safety of dams
    program, we believe that the Bureau could increase program economy and efficiency
    by streamlining the corrective action process, by installing early warning systems, and
    by preparing and updating emergency action plans.

    BACKGROUND

The Department of the Interior’s safety of dams program was established in
February 1980 by Secretarial Order No. 3048, which provided that dams should be
periodically inspected and actions taken to correct identified or suspected safety
problems. Safety problems include design deficiencies, inadequate spillway capacity,
dam seepage, and excessive vegetation that pose an immediate or future threat to
the integrity of the dams and potentially affect downstream lives or property. As
part of the program, the Department prepares and approves an annual technical
                                                                       1
priority rating that lists its “high” or “significant” hazard dams based on a




1
 The hazard is “high” if failure of the dam would result in a loss of life of more than six persons or
in excessive economic loss. The hazard is “significant” if the loss of life would be from one to six
persons or the economic loss is appreciable.
                     2
    "risk-of-failure" assessment performed for each dam. The technical priority rating
    approved in June 1992 contained 387 dams, of which 70 were Bureau dams. The
    Department has issued two subsequent draft ratings, the latest of which (May 1994)
    listed 94 Bureau dams. The Secretarial Order also designated the Bureau of
    Reclamation as the agency responsible for providing overall coordination of the
    Departmental program and for developing standards, criteria, and guidelines for
    structural design and safety inspections.

     The Bureau of Indian Affairs is responsible for ensuring that its safety of dams
     program complies with Departmental standards, criteria, and guidelines, including
     the inspection of dams for safety deficiencies and the correction of any identified
    problems. In July 1987, the Bureau of Indian Affairs entered into an interagency
    agreement with the Bureau of Reclamation wherein Reclamation would perform
    safety evaluations on a cost-reimbursable basis. The results of these evaluations are
    presented in safety evaluation of existing dams reports, which describe the hazard
    potential posed by the dams and assess their safety condition. The Bureau of Indian
    Affairs is required by Departmental regulations to implement a prescribed corrective
    action process to address any identified safety deficiencies. The prescribed process
    includes four sequential phases: (1) the deficiency verification phase, which assesses
    through field investigations the extent and seriousness of any actual or potential
    safety deficiency; (2) the conceptual design phase, which examines alternatives for
    resolving the safety deficiencies noted in the deficiency verification phase; (3) the
    final design phase, during which the preferred alternative is selected and appropriate
    environmental documentation is prepared; and (4) the construction phase, which is
    the dam rehabilitation work. Appendix 1 provides a status of each of the Bureau’s
    dams.

Overall management of the Bureau of Indian Affairs safety of dams program is
vested in the Division of Water and Land Resources, located at the Central Office
in Washington, D.C. Bureau area office engineers, designated as dam safety
coordinators, execute the daily program activities, such as overseeing the technical
aspects of the program and the activities contracted to or by the tribes under the
Indian Self-Determination and Education Assistance Act, as amended (Public
Laws 93-638 and 100-427).

The Congress appropriated the Bureau about $43 million during fiscal years 1990
through 1993 for its safety of dams program. Bureau planning documents indicate
that an additional $313 million is needed to complete the repairs to the 70 Bureau
dams by fiscal year 2000. However, the Bureau received program funds totaling only
$18 million for fiscal year 1994 and expects to receive another $18 million for fiscal
year 1995. As such, funding levels would have to increase significantly for the


1
 The risk-of-failure is an engineering assessment that analyzes the probability that a structure is
likely to deteriorate and release or fail to hold back the water that it was designed to control. The
evaluation factors considered include items such as seepage, hydrology, static and dynamic stability,
and liquefaction of surrounding or building material.

                                                 2
 Bureau to complete the repairs by fiscal year 2000. Appendix 2 provides a
 breakdown of the projected costs associated with each of the Bureau’s dams.

 SCOPE OF AUDIT

We reviewed actions taken by the Bureau to implement the 10 recommendations
made in our September 1989 audit report to accomplish the program in the most
economical and efficient manner. For evaluation purposes, we included only the
Bureau’s 70 high or significant hazard dams identified in the June 1992 listing. Our
review did not extensively evaluate the 24 dams identified recently in the draft
listings, since the Bureau did not have time to make significant progress on these
structures and the additional dams had not been formally approved at the time of
our review.

Our program audit was made in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were
considered necessary under the circumstances. We conducted our review at the
Bureau’s headquarters, area, and agency offices and at selected Federal, state, and
tribal offices (see Appendix 3). As part of our review, we performed an evaluation
of the Bureau’s system of internal controls related to the program to the extent we
considered necessary to accomplish our audit objective. In planning our audit, we
also reviewed the Department of the Interior’s Annual Statement and Report,
required by the Federal Managers’ Financial Integrity Act, for 1993. We noted that
the Department was still reporting the material weakness associated with the
operation and maintenance of Bureau dams that was identified in our prior audit
report because some of the corrective actions were not scheduled to be completed
until 1999. We did not find any additional material internal control weaknesses;
however, we did identify areas wherein the Bureau could accomplish its program
objectives more effectively. These areas are discussed in the Results of Audit
section of this report. Our recommendations, if implemented, should improve the
economy and efficiency of the program.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office and the Office of Inspector
General have each issued an audit report that addressed the Bureau of Indian
Affairs safety of dams program as follows:

           The General Accounting Office report entitled “BIA and Indian Tribes
Are Taking Action to Address Dam Safety Concerns” (No. GAO/RCED-92-50),
issued on February 11, 1992, concluded that the Bureau had addressed key factors
which contributed to its limited progress during the 1980s in correcting known or
potential dam safety deficiencies and that efforts were under way at many of the
Bureau’s dams to accomplish the dam safety program. The report stated that
contracts had been awarded (or were being actively negotiated) by the Bureau to


                                        3
manage program activities on most of the dams ranked as high or significant
hazards. In addition, the Congress authorized additional staff resources for the
Bureau’s safety of dams program and instructed the Department not to divert
Bureau funds for fire suppression activities. To measure program progress and
accomplishments at each dam, the report recommended that the Assistant Secretary
for Indian Affairs develop and implement a management information system. The
Acting Assistant Secretary agreed with the recommendation and directed the Bureau
to implement a permanent information system by December 31, 1993. The Deputy
Commissioner of Indian Affairs approved an interim system on February 27, 1992,
but a permanent system had not been established at the time of our current review.

            The Office of Inspector General report entitled “Dam Safety Program,
Bureau of Indian Affairs” (No. 89-108), issued on September 5, 1989, concluded that
the Bureau of Indian Affairs had not demonstrated an adequate commitment to the
safety of dams program and had therefore made little progress in correcting safety
deficiencies identified by the Bureau of Reclamation. The report stated that the
Bureau of Indian Affairs had not taken sufficient actions to address safety concerns
at 31 dams under its jurisdiction that were identified as posing a high or significant
hazard and that were in poor or unsatisfactory condition. This situation occurred
because the Bureau had not (1) assigned sufficient priority to the program,
(2) restricted the operation of unsafe dams, and (3) effectively used available
engineering and fiscal resources to identify and correct safety deficiencies. The lack
of preventive maintenance also aggravated the hazards posed by unsafe dams. The
Bureau agreed with and was implementing all 10 of the report’s recommendations
at the time of our current review.

                           RESULTS OF AUDIT
The Bureau of Indian Affairs has significantly improved management of its safety
of dams program since our September 1989 audit report was issued. We also found
that the Bureau was addressing dam safety problems systematically within given
resources.    However, we believe that the Bureau could increase program
effectiveness and the potential for protecting lives and property by streamlining the
process of determining the alternatives considered to mediate deficiencies; by
installing early warning systems for each dam; and by preparing, testing, and
updating emergency action plans.

Followup of Prior Audit Report Recommendations

We found that the Bureau had implemented or had taken corrective actions on the
10 audit recommendations made in our September 1989 report. For example, area
directors certified that all dams were operated according to the proper operating
criteria (Recommendation A. 1), the Bureau ensured that safety evaluation reports
were distributed and used at the area and agency offices (Recommendation B.2), the
Congress appropriated $2 million (based on Bureau requests) for funding
maintenance activities on dams in fiscal year 1994 and Bureau officials said that they

                                          4
    expected this level of funding to continue (Recommendation B.3), and the Bureau
    established a separate account for dam safety program funds under the Bureau’s
    Federal Financial System (Recommendation C. 1). (The 10 recommendations in the
    September 1989 report and the actions taken by the Bureau to address the
    recommendations are summarized in Appendix 4.)

    Program Streamlining

    The Department’s standards, criteria, and guidelines for dam safety are intended to
    promote a uniform and economical approach to dam safety practices and problems.
    Although application of these standards, criteria, and guidelines can vary depending
    on the size and function of the dam, the Bureau, in implementing these guidelines,
    is required to follow an extensive, formalized corrective action process. This formal
    process offers little opportunity for deviation, even when the dam is small or the
    corrective action is relatively minor. Since many of the Bureau’s smaller dams
    impound water only periodically or have storage capacity of less than 1,000 acre-feet
    (see Appendix 5 for reservoir impoundment capacities), we believe that the Bureau
    can use less costly, nonstructural alternatives for these structures as follows:

             In 1984, a safety evaluation report identified numerous deficiencies at the
Santa Ana Dam, located in Santa Ana Pueblo, New Mexico. The earthen detention
                                                                 3
dam, with an impoundment capacity of about 560 acre-feet of water, essentially
serves a flood control purpose. By 1994, work had proceeded only to the conceptual
design phase, with about $730,000 allotted for required studies to complete the
deficiency verification phase. Bureau estimates to complete rehabilitation of the
Dam are about $29.8 million. However, engineers from both the Bureau’s South
Pueblo Agency and the Pueblo tribe’s architectural and engineering firm stated that
as an interim solution, the threat posed by the Dam could be reduced significantly
by lowering its impoundment capacity and by installing an early warning system for
a total cost of $63,000. The engineers stated that a permanent solution to the safety
problem would involve the construction of two or three smaller dams higher up in
the watershed at a cost of about $3.5 million. This alternative is substantially less
than the estimated costs of rehabilitating the Santa Ana Dam.

           Dam modification work on the Allen Dam, located on the Pine Ridge
Reservation in South Dakota, is currently estimated to cost about $1.8 million. The
earthen storage dam, which can impound about 300 acre-feet of water, is used
primarily for water supply and recreational purposes. The project is in the
deficiency verification phase, and about $100,000 has been obligated for this
purpose. The Aberdeen Area Office’s safety of dams coordinator told us that work
could be completed faster and at less cost by reducing the time spent on some of the
phases, combining parts of phases, designing the modification to meet the “worst
case scenario,” and then modifying the dam to this design. Based on the


3
 An acre-foot of water is the amount required to cover an acre of land to a depth of 1 foot
(approximately 326,000 gallons).

                                            5
    coordinator’s estimates, this approach could save as much as $100,000 by reducing
    the extraneous effort required in the deficiency verification and conceptual design
    phases of the process, such as testing and evaluating different designs.

                Modifications to correct the deficiencies identified at the Paguate North
    and South Dams, located on the Laguna Pueblo Reservation in New Mexico, are
    expected to cost about $1.3 million, of which about $600,000 has been spent. The
    two earthen dams, which are about 20 feet and 30 feet high with reservoir
    impoundment capacities of 50 acre-feet and 60 acre-feet, respectively, are used
    primarily for irrigation and recreational purposes. The Bureau’s Laguna Agency
    engineer stated that about 4 years had been spent on studies and reports but that
    work on just the structural modifications could have been completed in about
    60 days at substantially less cost.

    Based on our review of the Bureau’s inventory listing and status reports, we found
    that dam safety work on 43 of the 70 listed dams had not progressed beyond the
    deficiency verification phase. Bureau officials said that they believed the corrective
    action process was expensive and time-consuming because each of the four phases
    took approximately 1 year to complete. As such, a delay in any one phase delayed
    completion of the other phases and increased costs. Bureau officials stated that if
    they could exercise more flexibility earlier in the process, the safety of dams program
    could be operated more efficiently and at less cost. At the time of our current
    review, the Bureau was focusing its program resources on dam rehabilitation and
    construction modification work. Based on information provided to us by Bureau
    officials, we concluded that the program will not be completed for at least 17 more
    years at the current rate of funding. Therefore, while the formal corrective action
    process is needed to systematically identify and correct safety deficiencies at the
    Bureau’s larger dams, the process appears to be expensive and burdensome at many
    of the Bureau’s smaller dams.

    Early Warning Systems

Early warning systems provide dam operators and other appropriate officials with
the capability to remotely monitor, on a 24-hour basis, the climatic and hydrologic
conditions surrounding a dam. Typically, early warning systems, such as those
recently installed by the Confederated Salish and Kootenai Tribes of the Flathead
Reservation, are housed in stand-alone, tamper-resistant enclosures. The systems
                                                 4
consist of electronic or mechanical hardward that is fully integrated and
strategically placed above, at, and below a dam or stream bed. This placement
allows the electronic or mechanical sensors to monitor and transmit, via radio
frequencies, information about conditions at the dam and its surrounding


4
 Hardware includes such items as directional antennas, emergency status circuits, real-time data
transmitters, receivers/decoders, solar panels, air temperature sensors, repeater packages,
precipitation gauges, pressure transducers, combination rain/snow and reservoir elevation stations,
float systems, cables and batteries.

                                                6
 environment. The early warning systems provide on-line information, including
 reservoir and river levels, ambient temperatures, precipitation, and river flows. This
 remote-sensing capability assists officials in making decisions about potential
 threatening events and allows notification to local authorities in sufficient time to
 warn and/or evacuate populations placed at risk by either large operational releases
 of water or dam failures.

Although the Bureau’s responsibilities do not specifically include providing public
warning or evacuating impacted downstream areas, the Bureau is responsible, under
its safety of dams program, for the integrity and safety of its structures. Based on
our review, we found that only 26 of the 70 dams under the Bureau’s jurisdiction
have early warning systems to alert officials of pending danger or adverse
consequences such as rising water levels or malfunctioning floodgates. We noted
that the cost of these systems was between $6,000 and $154,000 depending on their
complexity. However, the Bureau has recently designed, purchased, and installed
systems at 15 of tire 26 dams for a total cost of about $607,000, or about $40,000 per
dam. As such, we believe that the installation of early warning systems is an
inexpensive alternative to major rehabilitation work and provides an effective means
of monitoring the sites during prolonged periods in which the dams are being
evaluated for safety deficiencies, thereby increasing the Bureau’s capability to
protect downstream inhabitants and property. We believe that program officials,
based on their recent accomplishments, should design and install a standard system
at those dams that are classified as high or significant hazards which would require
only minor site modifications.

Emergency Action Plans

The Departmental Manual (Part 753 DM 1.5) requires bureaus to prepare
emergency action plans for each of their dams identified as high or significant
hazards to provide operating personnel and local authorities with notification
procedures to follow during an emergency situation or an unusual event. The plans
include emergency procedures to provide warning to upstream and downstream
inhabitants, to water-related facility operators, to recreational users, and to other
persons who might be affected. The plans typically include inundation maps
showing the areas that would be covered with floodwater if the dams were to fail
and the names, addresses, and telephone numbers of key agency, tribal, law
enforcement, and local community disaster personnel. Each plan is required to be
updated annually and tested periodically to ensure that it serves its purpose.

We found that the Bureau had not prepared emergency action plans for 47 of its
70 high or significant hazard dams. Only 6 of the 23 plans prepared had been
updated since January 1, 1993, and only 8 of the 23 plans had been tested within the
last year. Emergency action plans have not been completed for 30 dams because the
plans were in the draft stage pending installation of early warning systems, were
awaiting final approval by the tribes, or were delayed for other reasons. The
remaining 17 dams were low on the Bureau’s priority system.


                                         7
 The emergency action plan for a dam is an integral part of any early warning system,
 as illustrated in the General Accounting Office’s June 1977 report entitled “Actions
 Needed To Increase the Safety of Dams Built by the Bureau of Reclamation and the
 Corps of Engineers” (No. CED-77-85). The report concluded that the “confusion”
 and the “unclear communications” between the project staff and local officials before
 the Teton Dam collapsed, coupled with the “lack of preparedness” for the possibility
 of a dam failure, contributed significantly to the high loss of life and property
 damage. We believe that definitive emergency action plans should be prepared as
 soon as possible after a dam has been identified as a high or significant hazard.
 While developing action plans involves coordination between Bureau, tribal, and
 local community leaders, the potential consequences of a dam’s failure dictate that
 the process be expedited.

 Recommendations

 We recommend that the Assistant Secretary for Indian Affairs:

    1. Establish, in conjunction with the Departmental Dam Safety Task Force,
procedures which allow safety of dams coordinators to institute cost-saving
opportunities and alternatives to mitigate deficiencies in the safety of dams program
as part of the formal corrective action process.

    2. Perform a study of all high or significant hazard dams to determine the need
for an early warning system to protect downstream inhabitants and property and
require the Bureau to install such systems where needed.

    3. Establish procedures which ensure that emergency action plans have been
prepared and approved for all high or significant hazard dams, that the plans are
kept current, and that the plans are tested periodically.

Bureau of Indian Affairs Response

The November 25, 1994, response from the Assistant Secretary - Indian Affairs
(Appendix 6) stated that for Recommendation 1, the Bureau of Indian Affairs
believes that procedures are already in place to allow for the identification of the
most “economic remediation” methods available while also complying with
engineering procedures established by the Bureau of Reclamation.

The Bureau of Indian Affairs concurred with Recommendations 2 and 3 and
included a November 11, 1994, memorandum wherein it directed Area Directors to
establish a review as an annual requirement of implementation of emergency action
plans and early warning systems to ensure the Bureau’s “continuing responsiveness”
to safety of dams issues. The Bureau further stated that it, in conjunction with the
Bureau of Reclamation, will develop and present a training course on safety of dams
engineering principles and regulatory procedures to Bureau of Indian Affairs
engineers in January 1995.


                                         8
Office of Inspector General Comments

Based on the Bureau's response, we consider Recommendation 1 unresolved, and
additional information is needed for Recommendations 2 and 3 (see Appendix 7).

 Regarding Recommendation 1, during our review, safety of dams program
coordinators and engineers continually cited the “lack of flexibility” in the program’s
process that precluded relatively minor problems from being corrected economically.
Instead, according to these program officials, the process tends to drive the program
and, as such, extends it and substantially increases its overall costs and consequently
the risks posed by the structures. We agree with these program officials and believe
that more effort needs to be made to change this process. Recommendation 1 was
designed to allow the Bureau to work within the framework of the Departmental
Dam Safety Task Force and thereby promote cost-saving opportunities while still
complying with the engineering requirements established by the Bureau of
Reclamation. We are not suggesting that the Bureau of Indian Affairs deviate from
sound engineering principles; however, based on our review, we believe that
opportunities do exist that can result in substantial cost savings but that they are not
pursued because the process inhibits their implementation. As such, we are
requesting that the Bureau reconsider its response to this recommendation.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a
written response to this report by April 3, 1995. The response should provide the
information requested in Appendix 7.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.




                                          9
                                                                                                                         APPENDIX 1
                                                                                                                           Page 1 of 2


                                     STATUS OF BUREAU OF INDIAN AFFAIRS
                                    70 HIGH OR SIGNIFICANT HAZARD DAMS*

   D.O.I.                                                                    Design
   FY 92                                         Hazard-    Safety-        Verification   Conceptual    Final
   Rank      Area Office       Name of Dam       Analysis   Report          Analysis        Design     Design   Construction   Complete
        4   Navajo          Ganado                                                                                   x
        5   Navajo         Round Rock                                                                                x
        7   Albuquerque    Black Rock                                                                    x
    10      Billings       Bonneau                                                                       x
    11      Portland       Equalizer                                            x
    12      Aberdeen       Crow Creek                                           x
    18      Navajo         Many Farms                                                                    x
    20      Aberdeen       Standing Rock No. 1                                                                                    x
    22      Navajo         Canyon Diablo                                        x
    25      Portland       Pablo                                                                                                  x
    27      Albuquerque    Duke                                                               x
    28      Aberdeen       Rosebud                                                                                                x
    29      Aberdeen       He Dog                                                                                    x
    32      Aberdeen       White Clay                                                                                            x
    35      Billings       Washakie                                                                      x
    37      Portland       McDonald                                                                     x
   39       Albuquerque    Santa Ana Dam                                                     x
   41       Aberdeen       Oglala                                                                                                x
   42       Portland       Lower Dry Fork                                      x
   44       Phoenix        Weber                                                                        x
   47       Phoenix        Tufa Stone                                          x
   48       Portland       Indian Lake                                         x
   49       Portland       Jocko                              x
   50       Portland       Black Lake                                                                                            x
   53       Aberdeen       Parmalee                                                                     x
   56       Albuquerque    Acomita                                                                      x
   57       Navajo         Captain Tom Darn                  x
   58       Albuquerque    Lower Mundo                                                       x
   59       Portland       Upper Dry Fork                                      x
   61       Phoenix        Coolidge                                                                                 x
   63       Billings       East Fork                                           x
   65       Aberdeen       Indian Scout                                        x
   66       Albuquerque    Paguate North                                                     x
   67       Albuquerque    Paguate South                                                     x
   68       Phoenix        Pasture Canyon          x
   69       Navajo         Wheatfields                       x




*Status is as of May 1994 and does not include the 24 recently identified damson the draft technical priority listing, since these
dams were all in the hazard analysis stage.

                                                                      10
                                                                                                                 APPENDIX 1
                                                                                                                   Page 2 of 2


D.O.I.                                                               Design
FY 92                                        Hazard-    Safety-    Verification   Conceptual    Final
Rank      Area Office          Name of Dam   Analysis   Report      Analysis       Design      Design   Construction   Complete
  70      Portland       crow                             x
  72      Aberdeen      Ponca                                                                                             x
  75      Billings      Agency                            x
  76      Billings       Ray Lake                                                                x
  78      Portland      Ninepipe                          x
 80      Portland       Kicking Horse                     x
 81      Albuquerque    La Jara                                                       x
 82      Albuquerque    Lake Mescalero Dam                                                       x
 83      Aberdeen       Wanblee                 x
 84      Aberdeen       Kyle                                           x
114      Phoenix        Tuve                   x
127      Navajo         Cutter                            x
130      Portland       Tabor                                          x
131      Navajo         Wauneka                x
132      Portland       Hell Roaring                      x
136      Phoenix        Elgo                              x
144      Portland       Twin/Turtle                       x
169      Portland       Little Bitteroot                  x
180      Aberdeen       Ghost Hawk                                     x
182      Aberdeen       Ring Thunder                                   x
189      Navajo         Assayi                           x
203      Navajo         Tsaile                           x
219      Aberdeen       Allen                                          x
230      Navajo         Red Lake                         x
238      Phoenix        Wild Horse                       x
244      Portland       Hubbart                          x
250      Phoenix        Bottle Hollow                    x
251      Portland       Mission                          x
269      Billings       Lower Two Medicine               x
272      Portland       Blackfoot                        x
324      Billings       Willow Creek                     x
340      Phoenix        Headgate Rock                    x
353      Navajo         Blue Canyon                      x
359      Phoenix        Tat Momolikot                    x




                                                              11
                                                                                APPENDIX          2
                                                                                  Page 1 of       2



         PROJECTED COST OF BUREAU OF INDIAN AFFAIRS
                                               *
            70 HIGH OR SIGNIFICANT HAZARD DAMS

         D.O.I.                                                      Total Cost Projection
        FY 1992                                                         FYs 1994-2000
         Rank             Area Office              Name of Dam               (000's)
                 4   Navajo              Ganado                               $10,230
                 5   Navajo              Round Rock                               200
                 7   Albuquerque         Black Rock                            10,510
             10      Billings            Bonneau                                7,507
             11      Portland           Equalizer                               2,650
            12       Aberdeen           Crow Creek                              5,240
            18       Navajo             Many Farms                             13,495
            19       Aberdeen           Standing Reck No. 1                        10
            22       Navajo             Canyon Diablo                           6,307
            25       Portland           Pablo                                     540
            27       Albuquerque        Dulce                                   7,978
            28       Aberdeen           Rosebud                                    10
            29       Aberdeen           He Dog                                     10
            32       Aberdeen           White Clay                                 10
            35       Billings           Washakie                                6,504
            37       Portland           McDonald                                5,500
            39       Albuquerque        Santa Ana Dam                          29,815
            41       Aberdeen           Oglala                                     10
            42       Portland           Lower Dry Fork                          6,500
            44       Phoenix            Weber                                   8,810
            47       Phoenix            Tufa Stone                              5,970
            48       Portland           Indian Lake                             1,300
            49       Portland           Jocko                                   1,250
            50       Portland           Black Lake               ,                510
            53       Aberdeen           Parmalee                 I              4,340        II
            56       Albuquerque        Acomita                                 3,280
            57       Navajo             Captain Tom Darn                       11,350
            58       Albuquerque        Lower Mundo                             3,030
            59       Portland           Upper Dry Fork                          6,720
            61       Phoenix            Coolidge                                   50
            63       Billings           East Fork                               3,363
            65       Aberdeen           Indian Scout                            2,630
         66/67       Albuquerque        Paguate North/South                      700
           68        Phoenix            Pasture Canyon                          2,110
           69        Navajo             Wheatfields                            6,560




*
Bureau cost projections are as of December 1993 and do not include the 24 recently identified
Bureau dams in the Department’s May 3, 1994, draft technical priority rating.

                                                 12
                                                                                        APPENDIX 2
                                                                                          Page 2 of 2


 D.O.I.                                                                      Total Cost Projection
FY 1992                                                                         FYs 1994-2000
 Rank           Area Office   I               Name of Dam                            (000's)
                                                                        I,
   70      Portland                Crow                                                 6,950
   72      Aberdeen               Ponca                                 I                  10
   75      Billings                Agency                                               2,746
   76      Billings                Ray Lake                                             2,506
   78      Portland               Ninepipe                          I                   4,040
   80      Portland           I Kicking Horse                                           2,800
   81     Albuquerque              La Jara                                              2,681
   82     Albuquerque
               .   .              Lake Mescalero Dam                                    3,740
   83     Aberdeen                Wanblee                                                 760
   84     Aberdeen                Kyle                                                  1,570
  114     Phoenix                 Tuve                                                  1,990
  127     Navajo                  Cutter                                               12,380
  130     Portland                Tabor                                                 6,740
  131     Navajo                  Wauneka                           I                     -o-
  132     Portland                Hell Roaring                                            700
  136     Phoenix                 Elgo                                                  5,600
  144     Portland                Twin/Turttle                                            700
  169     Portland                Little Bitteroot                                      1,000
  180     Aberdeen                Ghost Hawk                                            1,000
  182     Aberdeen                Ring Thunder                                          1,850
  189     Navajo
              .                   Assayi                                                7,560
 203      Navajo                  Tsaile                                               12,250
 219      Aberdeen                Allen                                                 1,700
 230      Navajo
              .                   Red Lake                                             9,850
 238      Phoenix                 Wild Home                                              550
 244      Portland                Hubbart                                              4,930
 250      Phoenix                 Bottle Hollow                                        3,620
 251      Portland                Mission                                              5,800
 269      Billings                Lower Two Medicine                                     784
 272      Portland                Blackfoot                                              180
 324      Billings                Willow Creek                                         2,773
 340      Phoenix                 Headgate Rock                                           10
 353      Navajo                  Blue Canyon                                          5,300
 359      Phoenix                 Tat Momolikot                                           10
                         Program Overhead and Other Costs                             22,615
                                            Total Projected Costs                   $312,664




                                            13
                                                                          APPENDIX 3
                                                                            Page 1 of 2

                       OFFICES VISITED OR CONTACTED


 Bureau of Indian Affairs

        Central Office, Washington, D.C.
        Aberdeen Area Office, Aberdeen, South Dakota
             Crow Creek Agency, Fort Thompson, South Dakota
             Pine Ridge Agency, Pine Ridge, South Dakota*
             Rosebud Agency, Rosebud, South Dakota
        Albuquerque Area Office, Albuquerque, New Mexico
             Laguna Agency, Laguna, New Mexico*
             Southern Pueblos Agency, Albuquerque, New Mexico
             Jicarilla Agency, Dulce, New Mexico*
             Zuni Agency, Zuni, New Mexico*
        Billings Area Office, Billings, Montana*
        Navajo Area Office, Gallup, New Mexico, and Window Rock, Arizona
        Phoenix Area Office, Phoenix, Arizona
        Portland Area Office, Portland, Oregon*
             Flathead Agency, Pablo, Montana
             Fort Hall Agency, Fort Hall, Idaho*
             Umatilla Agency, Pendleton, Oregon*
        Sacramento Area Office, Sacramento, California

Tribal Governments

        Pueblo of Acoma, Acomita, New Mexico
        Chippewa Cree Tribe of Rocky Boys Reservation, Box Elder, Montana*
        Confederated Salish and Kootenai Tribes of the Flathead Reservation,
             Pablo, Montana
        Confederated Tribes of the Umatilla Indian Reservation, Pendleton, Oregon*
        Jicarilla Apache Tribe, Dulce, New Mexico*
        Navajo Nation, Window Rock, Arizona
        Oglala Sioux Tribe, Pine Ridge, South Dakota*
        Pueblo of Laguna, Laguna, New Mexico*
        Rosebud Sioux Tribe, Rosebud, South Dakota
        Pueblo of Santa Ana, Santa Ana Pueblo, New Mexico*
        Walker River Paiute Indian Tribes, Schurz, Nevada*
        Pueblo of Zuni, Zuni, New Mexico*




*Contacted Only                           14
                                                                          APPENDIX 3
                                                                            Page 2 of 2


Bureau of Reclamation

       Dam Safety Office, Denver, Colorado”
       Geotechnical Engineering and Embankment Dams Branch, Denver, Colorado*
       Upper Colorado Regional Office, Salt Lake City, Utah*
       Navajo Indian Irrigation Project Office, Farmington, New Mexico”

U.S. Army Corps of Engineers

       General Engineering Branch, Civil Works Division, Washington, D. C.*
       Chief of Engineering, Sacramento District Office, Sacramento, California*
       Operations Branch, Sacramento District Office, Sacramento, California”

U.S. Department of Agriculture’s Soil Conservation Service

       Water Safety Projects Division, Washington, D. C.”

State of California

      Department of Water Resources, Safety of Dams Branch, Water Resources
         Department Sacramento, California*

Other Entities

      Laguna Construction Company, Pueblo of Laguna, New Mexico*




                                           15
                                                                          APPENDIX 4
                                                                            Page 1 of 3


SUMMARY OF RECOMMENDATIONS AND CORRECTIVE ACTIONS
                 FOR AUDIT REPORT
   “DAM SAFETY PROGRAM, BUREAU OF INDIAN AFFAIRS”
                    (NO. 89-108)


             Recommendations                        Corrective Actions

A. 1. Establish operating criteria for        The Bureau agreed to establish
      each dam in “unsatisfactory” or         operating criteria for each dam in
      “poor” condition and restrict           satisfactory, unsatisfactory, and poor
      reservoir impoundments                  condition.       The Bureau’s area
      accordingly to reduce potential         directors certified that their dams were
      for dam failure and the                 operated in accordance with the
      resultant loss of life and              proper operating criteria.
      property.

A.2. Require all area offices to              The Bureau has contracted much of
     initiate contractual agreements           its safety of dams program to various
     to perform the post-evaluation            Indian tribes under Public Law 93-638.
     and corrective action steps of           The tribes, in turn, contract with the
     the dam safety program,                  Bureau of Reclamation and architect
     including contracts with the             and engineering firms for technical
     Bureau of Reclamation for use            expertise. In those cases where the
     of engineering resources under           tribes do not want to manage the
     the terms of the existing                program, the Bureau of Indian Affairs
     Memorandum of Interagency                contracts directly with the Bureau of
     Agreement dated July 2, 1987.            Reclamation. As discussed in our
     In addition, implement a                 current report the Bureau of Indian
     systematic action program for            Affairs has implemented a systematic
     each dam similar to the one              plan of action for each dam that is
     agreed upon by the Bureau of             identified on the Department’s priority
     Indian Affairs and the Bureau            listing.
     of Reclamation in
     February 1988.




                                         16
                                                                             APPENDIX 4
                                                                               Page 2 of 3


              Recommendations                             Corrective Actions

 A.3. Identify the economic value                The Bureau was addressing the
       and trust responsibility for each         economic value of the dams in the
       dam to determine which dams               conceptual design phase of the
       serve useful purposes and                 program. However, since most of the
       warrant dam safety                        dams have not yet reached this phase
       expenditures. For those dams              of the program, the recommendation
       not serving useful purposes,              will not be fully implemented until
       take appropriate action, such as          1999.
       draining or breaching, to
       eliminate the potential hazard.

A.4. Obtain the Solicitor’s assistance          In December 1991, the Bureau
     to identify those cases where              requested the Department’s Solicitor
     repayment of program                       to determine whether funds
     expenditures is required and               appropriated for safety of dams
     establish criteria, guidelines,            activities at the Flathead Indian
     and contracts for repayment. If            Irrigation Project’s Black Lake Dam
     repayment issues cannot be                 could be expended on a
     resolved, seek appropriate                 nonreimbursable basis.         In a
     legislation.                               March 1992 opinion, the Acting
                                                Associate Solicitor for Indian Affairs
                                                concluded that appropriations for
                                                safety of dams work were intended to
                                                be expended on a nonreimbursable
                                                basis.

B.1.   Determine total responsibility           The Bureau determined that it was
       for maintaining each dam and             responsible, p e r 5 5 B I A M ,
       ensure that recurring routine            Supplement 6, for maintaining the
       maintenance programs are fully           dams. Legislation is pending in the
       implemented.                             Congress that would establish a
                                                program for the maintenance of dams
                                                located on Indian lands.

B.2.   Distribute dam safety                    The Bureau’s Central Office is
       examination r e p o r t s t o            distributing the examination reports to
       responsible dam operators and            the respective area offices, agency
       maintenance officials and                offices, and tribes.           Routine
       establish followup procedures            maintenance items identified in the
       to ensure that routine                   examination reports were being
       maintenance problems are                 corrected in fiscal year 1994.
       corrected.



                                           17
                                                                         APPENDIX 4
                                                                           Page 3 of 3


             Recommendations                            Corrective Actions

B.3. Establish routine periodic              The Bureau now receives dam safety
     maintenance as a long-term              operation and maintenance funds
     commitment and request                  under the Irrigation Operation and
     sufficient funding to ensure its        Maintenance program element. The
     accomplishment.                         Bureau received dam maintenance
                                             funds of $2 million in fiscal year 1994
                                             and expects to receive another
                                             $2 million in fiscal year 1995.

Cl. Use separate accounts or                 The Bureau established a separate
     otherwise separately account            account for the safety of dams
     for the dam safety funds and            program in the Federal Financial
     expenditures program.                   System.     Safety of dams program
                                             funds are now included in the
                                             resource management construction
                                             activity under program element 12400.

C.2. Remove past dam safety                  The Bureau removed the funds from
     program budgeted items and              the commingled account.             As
     related c o s t s f r o m t h e         discussed previously, the establishment
     commingled accounts and                 of the safety of dams program element
     account for these costs as              has segregated the program from all
     recommended above.                      o t h e r resource m a n a g e m e n t
                                             construction program elements.

C.3. Reconcile         program               The Bureau adjusted for the
      appropriations, allotments,            discrepancy by decreasing the Navajo
      obligations, and expenditures          Indian Irrigation Project account
      and adjust the Navajo Area             balance and increasing the safety of
      Office Many Farms Dam                  dams program account balance.
      account for the $482,000
      discrepancy.




                                        18
                                                     APPENDIX 5



RESERVOIR IMPOUNDMENT CAPACITIES OF
    BUREAU OF INDIAN AFFAIRS DAMS


                           Number of Listed Dams
 Acre-Foot Capacities   Approved    Draft      Total

        0-49                   1       8         9
       50-99                   7       1         8
      100-499                  6       5        11
      500-999                 10       4        14
    1,000-4,999               16       1        17
    5,000-9,000                9       4        13
   10,000-19,999               9       1        10
   20,000-99,999               9       0         9
   over 100,000                3       0         3
                Total         70      24        94




                         19
                                                          APPENDIX 6
                                                          Page 1 of 2


              United States Department of the Interior
                         OFFICE OF THE SECRETARY
                          WASHINGTON, D.C. 20240


Memorandum

To:          Assistant Inspector General

           Ada E. Deer
           Assistant Secretary - Indian Affairs

Subject:   OIG Draft Audit W-IN-BIA-001-94 - Safety of Dams Program,
           BIA

On September 8, 1994, a representative from your office conducted
a close-out meeting with the Bureau of Indian Affairs (Bureau)
personnel to discuss the recommendations included in the subject
audit.   At that time, the Bureau raised a number of concerns with
the recommendations in the Preliminary Draft Audit Report.    There
was agreement that the Bureau’s ability to respond to the audit
recommendations is constrained by the engineering requirements
defined by the Bureau of Reclamation (Reclamation). We anticipated
that the Draft Audit Report would be modified to condition the
recommendation on Reclamation’s concurrence in Bureau proposals.
We also understood the Draft Audit Report would condition its
recommendation for Early Warning Systems (EWS) on the results from
the Emergency Action Plan (EAP) recommendations and would address
both issues together in one recommendation. None of these changes
were incorporated into the Draft Report, even though the final
sentence of the report says that “The representatives generally
agreed with the report’s finding and recommendations. “ Given the
fact that none of the agreed changes were made, we request that the
above cited sentence be deleted from the report.        We further
question the exit conference process, itself, as the commitments
made on behalf of your office were not kept.

Below are our responses to the audit recommendations:

Recommendation Al:        Establish, in conjunction      with   the
Departmental Dam Safety Task Force, procedures which allow safety
of dams coordinators to institute cost-saving opportunities and
alternatives to mitigate deficiencies in the safety of dams program
as part of the formal corrective action process.

Response: The Bureau believes that the procedures in place already
allow for the identification of the most economic remediation
methods while complying with engineering procedures established by
Reclamation and while serving the interest of the benefiting
tribes.




                                  20
                                                         APPENDIX 6
                                                         Page 2 of 2


Recommendation A.2: Perform a study of all “high” or “significant”
hazard dams to determine the need for an EWS to protect downstream
inhabitants and property and require the Bureau to install such
systems where needed.

Recommendation A.3:      Establish procedures which ensure that
emergency action plans have been prepared and approved for all high
or significant hazard dams, that the plans are kept current, and
that the plans are tested periodically.

Response to A.2 and A.3:      The Bureau concurs.     The attached
memorandum dated November 11, 1994, advised Area Directors who have
“high” or “significant” risk dams within their jurisdiction of the
need for appropriate EAP's and EWS for those dams.         The memo
establishes the review of EAP and EWS implementation as an annual
requirement to be met by the Area Directors to ensure the Bureau’s
continuing responsiveness to safety of dams issues.    The Bureau’s
Safety of Dams Officers will evaluate EAP and EWS implementation
starting November 30, 1994.   This evaluation will be completed by
April 1995.   Further, the Bureau is working with Reclamation to
develop and present a training course during January 1995, to
Bureau engineers to bring them current on safety of dams
engineering principles and regulatory procedures issued.


Attachment




                               21
                                                                              APPENDIX 7

          STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
   Reference                Status                               Action Required

      1          Unresolved.                         Reconsider the recommendation, and
                                                     provide an action plan that includes
                                                     target dates and titles of officials
                                                     responsible for implementation.

    2 and 3      Management concurs;                 Provide the titles of officials
                 additional information              responsible for implementation.
                 needed.




                                         22
                   * U.S. GOVERNMENT PRINTING OFFICE: 1995 301- 126/00036
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                    Calling:


                       Within the Continental United States


U.S. Department of the Interior                           Our 24-hour
Office of Inspector General                               Telephone HOTLINE
P.O. Box 1593                                             1-800-424-5081 or
Arlington Virginia 22210                                  (703) 235-9399

                                                          TDD for the hearing impaired
                                                          (703) 235-9403 or
                                                          1-800-354-0996


                      Outside the Continental United States

                                     Caribbean Area


U. S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                   North Pacific Region
U. S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                               COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
